CERTIFICATE OF SERVICE
NO. 20-303
United States
Petitioner(s)
v.
Jose Luis Vaello-Madero
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
PLAINTIFF RUIZ-AVILES V. SSA ET AL. AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENTS, by
mailing three (3) true and correct copies of the same by USPS Priority prepaid for delivery to the
following addresses:
Brian H. Fletcher
Solicitor General, US DOJ
Room 5616
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for United States

Herman Ferre
Curtis, Mallet-Prevost, Colt and Mosle LLP
101 Park Avenue
New York, NY 10178
(212) 696-8871
hferre@curtis.com
Counsel for Jose Luis Vaello-Madero

Lucas DeDeus

August 21, 2021
SCP Tracking: Abislaiman-252 Calle Cruz Ste 201-Cover Dark Green

